HHS/OIG, Audit -"Review of Outlier Payments Made to Eastern Maine Medical Center Under the Outpatient Prospective Payment System for the Period August 1, 2000 Through June 30, 2001,"(A-01-02-00507)
Department
of Health and Human Services
"Review of Outlier Payments Made to Eastern Maine Medical Center Under the Outpatient Prospective Payment System
for the Period August 1, 2000 Through June 30, 2001," (A-01-02-00507)
January 15, 2003
Complete
Text of Report is available in PDF format (446 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether outpatient claims with outlier payments were billed in accordance
with Medicare laws and regulations. We judgmentally selected 33 claims with outlier payments of $208,250. We found overpayments
of $59,470 were made for 28 of the selected claims because Eastern Maine Medical Center (EMMC) did not bill for the correct
number of units of drugs and biologicals. We found that a conversion error in EMMC's billing system when outpatient prospective
payment system was implemented resulted in unwarranted or excessive outlier payments. Specifically, a programming change
designed to convert operating room units from multiple units to one unit was inadvertently applied to all line items reducing
the line item reimbursement. This reduction in line item reimbursement, combined with charges being recorded in full, generated
outlier reimbursement in excess of the appropriate reimbursement amount.  The EMMC concurred with our findings and
recommendations.